Audit Report



Return
    to the USDOJ/OIG Home Page




Office of Community Oriented Policing Services Grants
to the City of Pueblo, Colorado Police Department

GR-60-02-002


July 2002
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of grants awarded by the Office of Community Oriented Policing Services (COPS) to the City of Pueblo, Colorado, Police Department (PPD).  The purpose of the grants is to enhance community policing.  The PPD was awarded a total of $2,392,500 to hire 24 new police officers and redeploy the equivalent of 23.7 existing full-time police officers from administrative duties to community policing.
We reviewed the PPD's compliance with seven essential grant requirements and found that the PPD complied with grant requirements with respect to budgeting for officers, retention of officer positions, officer redeployment, and community policing activities.  We found weaknesses in three of the seven areas we tested: hiring of officers, source of matching funds, and reimbursement requests.  In addition, although the PPD accepted a third Universal Hiring Program (UHP 3) grant award in the amount of $450,000, it had not incurred any expenditures related to this award and do not intend to draw down any of these funds.  As a result of these deficiencies, we recommend $450,000 be deobligated and put to better use and we question $87,804 in grant funds received 1.

Although, the PPD applied for and accepted the UHP 3 award, it had not hired any officers or requested reimbursement of funding related to this award.  City officials did not believe that the city would be able to meet the local match requirement or the funding necessary for retaining the officers at the expiration of the award.  PPD officials stated they believed that they had notified the COPS Office of their intention to return the award, but could not provide documentation to support such assertion.  According to the COPS Office, the UHP 3 award period ended July 31, 2001.  Consequently, we recommend that the award amount of $450,000 be deobligated and put to better use.
The PPD did not maintain the required level of officer positions during the UHP 1 and UHP 2 award periods.  The PPD was below the target level for on-board officers for 12 of the 14 months during the period January 1999 through February 2000, resulting in questioned costs of $85,403.
The PPD did not identify the source and dates of the matching funds for the AHEAD and UHP awards in the budget or accounting records.
The PPD incorrectly used a percentage of the award amounts in lieu of the actual payroll and fringe benefit costs to determine program outlays for reimbursement purposes.
The PPD charged a uniform allowance, an unallowable cost, in the amount of $2,401 to the AHEAD award.

These items are discussed in detail in the Findings and Recommendations section of the report.  Our audit objectives, scope and methodology appear in Appendix I.


Footnote

The Inspector General Act of 1988 contains our reporting requirements for questioned costs and funds to better use.  However, not all findings are dollar-related.  See Appendix III for a breakdown of our dollar-related findings and for definitions of questioned costs and funds to better use.